<html>
<title> - CELEBRATING 50 YEARS: THE EISENHOWER INTERSTATE HIGHWAY SYSTEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
     CELEBRATING 50 YEARS: THE EISENHOWER INTERSTATE HIGHWAY SYSTEM

=======================================================================

                                (109-85)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    HIGHWAYS, TRANSIT AND PIPELINES

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 27, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
30-655                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                  THOMAS E. PETRI, Wisconsin, Chairman

SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         NICK J. RAHALL II, West Virginia
JOHN J. DUNCAN, Jr., Tennessee       JERROLD NADLER, New York
JOHN L. MICA, Florida                GENE TAYLOR, Mississippi
PETER HOEKSTRA, Michigan             JUANITA MILLENDER-McDONALD, 
SPENCER BACHUS, Alabama              California
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
SUE W. KELLY, New York               EARL BLUMENAUER, Oregon
RICHARD H. BAKER, Louisiana          ELLEN O. TAUSCHER, California
ROBERT W. NEY, Ohio                  BILL PASCRELL, JR., New Jersey
FRANK A. LoBIONDO, New Jersey        TIM HOLDEN, Pennsylvania
JERRY MORAN, Kansas                  BRIAN BAIRD, Washington
GARY G. MILLER, California, Vice-    SHELLEY BERKLEY, Nevada
Chair                                JIM MATHESON, Utah
ROBIN HAYES, North Carolina          MICHAEL M. HONDA, California
ROB SIMMONS, Connecticut             RICK LARSEN, Washington
HENRY E. BROWN, Jr., South Carolina  MICHAEL E. CAPUANO, Massachusetts
TIMOTHY V. JOHNSON, Illinois         ANTHONY D. WEINER, New York
TODD RUSSELL PLATTS, Pennsylvania    JULIA CARSON, Indiana
SAM GRAVES, Missouri                 TIMOTHY H. BISHOP, New York
MARK R. KENNEDY, Minnesota           MICHAEL H. MICHAUD, Maine
BILL SHUSTER, Pennsylvania           LINCOLN DAVIS, Tennessee
JOHN BOOZMAN, Arkansas               BEN CHANDLER, Kentucky
MARIO DIAZ-BALART, Florida           BRIAN HIGGINS, New York
JON C. PORTER, Nevada                RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                ALLYSON Y. SCHWARTZ, Pennsylvania
KENNY MARCHANT, Texas                JAMES L. OBERSTAR, Minnesota
MICHAEL E. SODREL, Indiana             (Ex Officio)
DAVID G. REICHERT, Washington
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Capka, J. Richard, Acting Administrator, Federal Highway 
  Administration, U.S. Department of Transportation..............     5
 Gifford, Jonathan, Professor, School of Public Policy, George 
  Mason University...............................................    18
 Lewis, Tom, Professor and Author, Skidmore College..............    18
 McCormick, Eugene R., Senior Vice President and Chairman of the 
  Board, Parsons, Brinkerhoff, Quade and Douglas, and Chairman, 
  American Roads and Transportation Builders Association.........    18

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    36
Cummings, Hon. Elijah E., of Maryland............................    37
Defazio, Hon. Peter A., of Oregon................................    43
Millender-McDonald, Hon. Juanita, of California..................    60

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Capka, J. Richard...............................................    29
 Gifford, Jonathan...............................................    44
 Lewis, Tom......................................................    47
 McCormick, Eugene R.............................................    53


     CELEBRATING 50 YEARS: THE EISENHOWER INTERSTATE HIGHWAY SYSTEM

                              ----------                              


                        Tuesday, June 27, 2006,

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Highways, Transit and Pipelines,Washington, 
            D.C.
    The committee met, pursuant to call, at 2:00 p.m. in Room 
2167, Rayburn House Office Building, the Honorable Tom Petri 
[chairman of the committee] presiding.
    Mr. Petri. The hearing will come to order. My colleague and 
counterpart, Mr. DeFazio, is on his way and I suspect will be 
here by the time I finish my opening statement and he will have 
one as well.
    We would like to welcome members and the witnesses to 
today's hearing, which is entitled Celebrating 50 Years: The 
Eisenhower Interstate Highway System. Since this is a 
celebration, we are going to celebrate with cake immediately 
following today's hearing. That is cake, not pork pie. That is 
good cake. I invite you all to stay and enjoy some in honor of 
the interstate's 50th anniversary.
    The purpose of today's hearing is to provide members of the 
Committee with a brief history of the interstate, its impact on 
American culture, and the future of this vital system. On 
Thursday, June 29th, the interstate highway system will 
celebrate its 50th anniversary. In 1956, after much planning 
and compromise, President Dwight D. Eisenhower signed the 
Federal Aid Highway Act, creating the interstate highway 
system, a project which transformed America forever.
    As our Country entered the 20th century, good roads, even 
paved roads, weren't common. Plans for a national system of 
expressways were developed in 1944 by the National Highway 
Committee. Congress designated the 40,000 mile national system 
of interstate highways in 1944, but funding would not be 
authorized until 1952, when President Harry Truman signed the 
Federal Aid Highway Act of 1952, offering a token down payment 
of $25 million for the interstates.
    However, it would be up to the next President, President 
Dwight David Eisenhower, to lead the campaign for the Nation's 
interstate system. President Eisenhower made it a keystone of 
his domestic agenda when he was elected to office in 1953. He 
envisaged a new, tax-based financing plan with the Federal 
Government bearing the largest share of construction costs. 
Eisenhower signed the Federal Aid Highway Act without fanfare, 
in a hospital room at Walter Reed Army Medical Center, where he 
was recovering from illness.
    Today, Americans continue to reap the benefits of that 
legislation. The wide, relatively straight roadways in the 
interstate highway system were designed to be faster and safer 
than the two-lane roads that preceded them. In fact, the 
interstate system is the safest road system in America, with a 
fatality rate of .8 compared to 1.44 for all roads in 2004.
    The interstate system, which accounts for only 1 percent of 
the Nation's total road mileage, but carries over 24 percent of 
the Nation's traffic, has come to be taken as a fact of life. 
Yet the interstate has become woven into the fabric of American 
life. In 2004, Americans traveled about 267 billion vehicle 
miles on the rural interstate roads, 26 billion vehicle miles 
on the small urban interstate roads, and over 434 billion 
vehicle miles on the urbanized interstate roads. Chances are, 
almost everyone in this room traveled here today by interstate 
at some point in their journey.
    We have invited two panels of witnesses today. On our first 
panel, we welcome Mr. Richard Capka, Administrator of the 
Federal Highway Administration. His testimony will explain how 
the interstate came about through President's Eisenhower's 
determination for a national road and the impact that the 
interstate has made on America's daily life.
    Our second panel includes Dr. Jonathon Gifford, a professor 
of public management and policy at George Mason University; Dr. 
Tom Lewis, an English professor at Skidmore College and author 
of ``Divided Highways,'' a book dedicated to the creation of 
the highways and what its impact has been on American life; and 
finally, Mr. Gene McCormick, Chairman of the American Road and 
Transportation Builders Association.
    I would now ask if other members have any opening 
statements that they would care to make. Mr. Pascrell.
    Mr. Pascrell. Mr. Chairman, we are here this afternoon to 
mark this 50th anniversary of really a watershed moment in 
American history. Ike, President Eisenhower, knew what he was 
doing. And it changed, really, the scope of what the Federal 
Government should and could get involved in. And that has been 
one of the big debates in the last 50 years, what should the 
Government be involved in, what should it stay out of. We know 
that the Government should stay out of our bedrooms. But we 
know also that the commerce of the Nation depends on whether or 
not we can move people and product. So Eisenhower knew what he 
was doing.
    The world's largest public works project, this was a 46,876 
mile web of superhighways. And it has really transformed our 
Nation, Mr. Chairman, it has transformed our economy. There is 
probably not one aspect of American society that hasn't been 
affected by the interstates.
    Its total economic impact is incalculable. Increases in 
travel have created a transportation system that is a sizeable 
element of the Country's gross domestic product. Interstates 
carry nearly 60,000 people per route mile per day. The economy 
of this Country depends on its interstates to move various 
goods. It is now an integral part of our homeland security 
network. We understand how important it is to securing the 
Nation.
    According to the Bureau of Transportation statistics, most 
transportation modes showed much higher productivity growth 
between 1955 and 1998 than did the U.S. business sector. It is 
easy to see why. In the past 50 years, our population increased 
1.75 times, miles driven increased 4.5 times, and registered 
vehicles increased 2.51 times, registered trucks increased 8.9 
times. So the growth is very evident on the interstate system. 
It accounts for only 1 percent of the Nation's total road 
mileage, and carries over 20 percent of the Nation's traffic. I 
find that to be a startling fact. I think it is a fact.
    Unfortunately, it seems we have come to the point where 
population growth has outstripped the system expansion and 
heavy use has led to congestion and frustration. Come to New 
Jersey. It is estimated that by 2020, New Jersey will have 1.4 
million additional residents, double the amount of freight 
moving throughout the State, a total of 34 billion additional 
vehicle miles will be traveled on basically the same roads. 
Many of those miles are on interstate roads.
    Failure to keep up with demands will result in continued 
congestion and gridlock. Congestion costs more than $67 billion 
annually in productivity. We have seen all the numbers there, 
how it affects productivity.
    So I support a surface transportation program that seeks to 
reduce congestion through multiple strategies, including 
creating more capacity, maximizing efficiency and managing 
demand. The interstate system has played a vital role in our 
economy and social fabric, and even in the transformation of 
our American self-image, from a dispersed collection of States 
to one of a unified Nation. President Eisenhower said in 1955, 
``Together, the united forces of our communication and 
transportation systems are dynamic elements in the very name we 
bear: the United States. Without them, we would be a mere 
alliance of many separate parts.''
    So the interstate system really is a unifying symbol to the 
entire Nation. And it is good that we are talking about it 
today at a time when we are so divided, when we are so 
concerned that we are different and enunciate our differences. 
This is truly something to celebrate, I really believe that. We 
cannot plan a strategy just to pave more roads. It is 
incredibly important to utilize what current roads we have in 
the most efficient manner possible.
    In an age of growing intermodalism, we must ensure that our 
Nation's highways are a part of a larger transportation policy 
which includes rail, aviation and the maritime transportation 
system.
    Mr. Chairman, in conclusion, this is no small task for us 
to recognize. We have come a long way. The system needs repair, 
as all systems do. And I am glad that as a member of Homeland 
Security, that we have looked and examined the infrastructure 
of our roads and our intermodal forms of transportation and 
protecting that infrastructure of this Country. Because it 
would be unbelievably catastrophic, we see what happens in a 
natural disaster, and we see what happened when men and women 
are fools and try to kill one another in a terrorist attack.
    So Mr. Chairman, this is a big day for us and we can thank 
a great Republican, Dwight Eisenhower, President of the United 
States. And I like to say, there have been so few great 
Republicans, I like to point them out.
    [Laughter.]
    Mr. Petri. Abraham Lincoln is another one.
    Mr. Coble.
    Mr. Coble. Mr. Chairman, with that in mind, I would like to 
give the gentleman from New Jersey additional time. He is on a 
good roll here.
    [Laughter.]
    Mr. Coble. Mr. Chairman, I will be very brief. I want to 
thank my friend from New Jersey, he very eloquently stated his 
case, and I think very appropriately so. I remember, Mr. 
Chairman, and colleagues, in one of my earlier campaigns, one 
of my crusty constituents came up to me. And he said, you can 
do me a good favor as my Congressman by seeing to it that our 
shores are safe, that my mail is delivered in a timely way, and 
keep the Government's hand and nose out of my business.
    As you point out, Bill, there is a time and place for 
Government involvement, and there is a time and place for 
Government to stay out of the way. This is a situation where 
obviously, it was an appropriate place for the Government to be 
heavily involved, as my friend from New Jersey pointed out, the 
moving of goods, products and people from place to place.
    Mr. Chairman, as you know, you live on the northern tier. I 
live nearer the southern tier. But we are border to border, 
ocean to ocean, a gigantically large, complex Country. But 
President Eisenhower and his supporters, both Democrat and 
Republican, who forged this idea into reality, brought us 
together. And this is indeed, again, quoting my friend from New 
Jersey, this is a hallmark day, Mr. Chairman, and I thank you 
for having scheduled this hearing, and I thank everyone in the 
audience for the attendance here, too. With that in mind, Mr. 
Chairman, I yield back.
    Mr. Petri. Thank you. Are there other opening statements? 
Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. I too want to commend 
the gentleman from New Jersey, because I think he is right on 
target. As we celebrate the 50 years of the achievements of the 
interstate, I would hope somebody else would have a vision to 
be able to take us to the next 50 years. Because I know that in 
my district, I represent Myrtle Beach, which has 14 million 
visitors a year.
    Somehow or another, in that early vision of the 1950s, they 
left out Myrtle Beach. So there are other pockets around this 
Country that need attention. So Mr. Director, I would hope that 
you would be that person with that vision that we could maybe 
celebrate 50 years from now all of your achievements.
    Thank you. I yield back the balance of my time.
    Mr. Petri. Thank you. I can't help but saying that you 
remind me of Cicero, who ended every speech by saying, and 
Carthage must be destroyed, except you say, and Myrtle Beach 
must be added to the interstate highway system.
    [Laughter.]
    Mr. Petri. And I will say he got his way, eventually.
    Mr. Brown. I am still hoping, Mr. Chairman.
    Mr. Petri. Any other opening statements? If not, we will 
turn to our first panel, which is Richard Capka, the 
Administrator of the Federal Highway Administration, U.S. 
Department of Transportation. Welcome.

   TESTIMONY OF THE HONORABLE RICHARD CAPKA, ADMINISTRATOR, 
  FEDERAL HIGHWAY ADMINISTRATION, UNITED STATES DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Capka. Thank you, Mr. Chairman and members of the 
Committee. It is an honor for me to be here with you today to 
celebrate the 50th anniversary of the Eisenhower Interstate 
System.
    Mr. Chairman, I ask that my full statement be admitted for 
the record later on.
    Mr. Chairman, as you know, last week, Secretary Mineta 
submitted his letter of resignation to President Bush. He did 
so only after long and careful personal deliberations. He 
wanted me to convey his deep and personal professional respect 
to you and the members of this Committee. An extremely 
important part of his public career and public service was 
conducted with and through this Committee. You have his 
admiration and appreciation. He looks forward to maintaining 
his personal relationships with all of you throughout the 
future.
    In his letter to the President, Secretary Mineta paid 
tribute to the concept of bipartisanship. The Federal Aid 
Highway Act of 1956 is a very good example of a bipartisanship 
effort.
    On the Republican side, President Dwight David Eisenhower 
and Senator Prescott Bush, President Bush's grandfather; and on 
the Democrat side, Congressman George Fallon, Hale Boggs, and 
Senator Albert Gore, Sr., all helped create one of the greatest 
public works projects in history. Since 1956, every President 
and each succeeding Congress has supported the Interstate 
system.
    The importance of the Interstate system to our economy and 
our way of life cannot be over-exaggerated. The system was 
conceived at the end of the Depression and launched at the 
height of the Cold War. It supported one of the most expansive 
periods of economic growth and made America the most mobile 
society ever. It also made highway travel safer and more 
efficient.
    The following is a quote from a former chief of the U.S. 
Bureau of Public Roads, Thomas McDonald, and one that I thought 
was particularly insightful. ``The roads themselves helped us 
create a new wealth, in business and in industry and land 
values. So it was not our wealth that made our highways 
possible; rather, it was our highways that made our Nation's 
wealth possible.'' We could easily substitute the words 
``Interstate system'' for ``highways'' and the result is why we 
are here celebrating today.
    In his Grand Plan, President Eisenhower envisioned each 
level of government contributing to the upgrade of the Nation's 
entire road network. His goal was the creation of a system to 
improve safety, reduce traffic jams, increase economic 
efficiency and provide for the national defense. Indeed, the 
1956 Act resulted in landmark changes to the connectivity of 
the highways in the United States and the ways in which those 
highways are financed. Not only did he create today's 
Interstate system, but it also established a Highway Trust 
Fund, uniformity of design and signs, and the linkage between 
highway user tax revenue and highway expenditures.
    The Interstate system has succeeded in achieving President 
Eisenhower's vision. The system supports a growing economy, a 
strong national defense, and the vibrant American way of life. 
It is not only our safest highway network, but also the most 
flexible, as it serves changing traffic, increasing freight 
needs, and evolving American goals.
    As we celebrate the 50th anniversary of the Interstate 
system, we must think about the future. We must examine the 
remaining service life of the Interstate highways and how to 
preserve in the same way for the next 50 years. We need to 
broaden our thinking and move forward to address today's 
challenges.
    In many respects, our transportation system has become a 
victim of its own success. Our growing economy and standard of 
living have created a demand for travel and movement of goods 
that is increasingly more difficult to meet. Congestion is not 
an insurmountable problem, but we must embrace new solutions in 
order to make meaningful progress in reducing congestion.
    During National Transportation Week, Secretary Mineta 
launched the National Strategy to Reduce Congestion on 
America's Transportation Network, a national congestion relief 
initiative designed to address the challenges ahead for our 
surface transportation system. This dynamic plan will maximize 
valuable tools Congress provided in SAFETEA-LU, to improve 
operation of our surface transportation system, encourage the 
development and deployment of new technologies and construction 
methods, and expand opportunities for private investment in 
transportation infrastructure.
    One of the most critical aspects of the initiative is 
reducing or removing barriers to private-sector investment in 
the construction and operation of transportation 
infrastructure. It is time to take advantage of the private 
sector's flexibility, innovation, creativity, expertise and 
access to capital, while maintaining the public oversight, 
accountability to taxpayers, and long term strategic planning.
    The Interstate system has been the backbone of our economy 
for 50 years. It provides a vital connection between people, 
goods, and services to help link the U.S. markets with those 
around the world. This year, we honor President Eisenhower's 
vision of network of highways that brought America together and 
strengthened the national economy.
    But we also set the stage for the system's next 50 years. 
The National Surface Transportation Policy and Revenue Study 
Commission, which is meeting as we speak today, is beginning to 
think comprehensively about the future of highway policy by 
reviewing current methods and exploring alternatives for 
investing in and managing our surface transportation systems.
    Mr. Chairman, members, I want to congratulate all of you 
and your Committee for your insights, your exceptional 
leadership, and the prominent role in making our Nation's 
Interstate highway system the success that it is today. The 
U.S. Department of Transportation, the Federal Highway 
Administration, and I look forward to continuing to work with 
you as we move forward in shaping the next 50 years of our 
national highway transportation system.
    Mr. Chairman, members, thank you very much for the 
opportunity to testify here today before you. I look forward to 
answering your questions.
    Mr. Petri. Thank you for representing the Department on 
this celebratory occasion.
    Now for questions, Mr. Pascrell.
    Mr. Pascrell. Mr. Capka, the transformations that you 
talked about with regard to transportation and its effect on 
the economy, on our social and cultural mores, are in the 
record. After 50 years, we have really come to a new phase in 
the system's development, this infrastructure that you talked 
about. Beyond simply building the basic infrastructure, the 
time has come, I think, to implement new innovations in design 
and management.
    I have two questions. What plans does the Department have 
to take the Interstate system into the future? Could you tell 
us of those next 50 years, or 10 years, what is on the drawing 
board, to give folks an opportunity to envision where we are 
going to be a few years from now?
    Mr. Capka. Thank you, sir, for your question. In fact, your 
opening statement very well articulated the challenges that we 
have ahead of us. Certainly, the answer is not just building 
additional capacity. It really isn't. It is the most effective 
use of the system that we do have, in other words, the 
operations of the highway systems. How can we maximize the 
throughput of the system that we already have? How can we 
reduce congestion in the system that we already have?
    Secondly, as you also pointed out, is to make better use of 
the resources that are given to us. How can we make the dollars 
stretch further? How can we make the capital improvements last 
longer? How can we count on the bridges lasting longer and 
withstanding the ever-increasing environmental challenges that 
are here?
    Each one of those factors will have to be contributing to 
the overall solution. There will be some added capacity, I 
think there has to be. But at the same time, there are 
opportunities to use the system that we have better, and to be 
better stewards of the resources that we are given.
    Mr. Pascrell. Your department has studied who the real 
culprits are in terms of congestion on our roads. And we have 
been talking about this for some time now. What is your 
conclusion about this congestion problem that we face? And am I 
to assume from what you said we shouldn't be looking for new 
roads, but trying to bring those roads that already exist into 
the 21st century? That is, many of these roads were built 50 
years ago. And many of these roads can't take the traffic that 
exists now. They are unsafe. People are getting killed 
throughout this Country, with roads that were built many years 
ago.
    Would you address these culprits, and would you tell us how 
we should be addressing the major question of congestion?
    Mr. Capka. Mr. Pascrell, again, a very important 
observation and something that I think we have all locked onto. 
It is quite interesting, if you look back into history and the 
forward thinking, which kind of overlooked the importance of 
truck traffic, as an example. In the 1930s and 1940s when these 
plans were first being conceived, trucks were considered to be 
an insignificant requirement on the Interstates. Today we know 
how important truck traffic is.
    I think we need to be able to throttle the demand for the 
use of the capacity that we do have. Techniques, such as value 
pricing, to look at the use of our highway system, much like we 
looked at the use of utility systems, where in the summer time, 
when we are using electricity, we understand that at peak 
periods we are going to pay more for that electricity.
    I think the same logic needs to be built into the highway 
systems that we have, in order for folks to use the system that 
we do have more rationally. That is one example. There are 
other examples as well, as to how we might be able to use 
technology to better inform the users of the system as to what 
they can expect, so they can avoid the challenges that may be 
ahead and really craft more logical travel plans to get from 
one point to another.
    There are plenty of opportunities, I think. Transportation 
technology right now is proceeding to the point where it will 
be an enabler for us to take full advantage.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Capka, your testimony mentions transportation systems 
improvements, such as the national 5-1-1 traveler information 
number that will play a vital role in better management of the 
system. Can that 5-1-1 number be generated only from cell 
phones or from conventional phones as well?
    Mr. Capka. Sir, the 5-1-1 can be called up from any phone. 
A cell phone obviously is one that, when folks are out and 
about is certainly a good technique of attaching to 5-1-1. The 
5-1-1 can be called from conventional phones, too, I believe. I 
haven't tried it that way, but I have been told that it would 
work.
    Mr. Coble. All right, sir. If I may extend from my friend 
from New Jersey, let me ask you this question. What role do you 
think the Highways for LIFE program will be in the future of 
the interstate system?
    Mr. Capka. Sir, that is another good question. In fact, you 
and members of this Committee challenged us through the 
SAFETEA-LU legislation to pursue this Highways for LIFE 
program, which is designed to ensure that emerging innovation, 
as it pops up in one part of the Country, is rapidly deployed 
throughout the rest of the Nation, so that we can find better 
techniques, longer lasting techniques, construction materials, 
construction techniques, to build highways quicker, the 
repairs, get the orange barrels out of the roads sooner and 
faster, and then create a project that will last longer. In 
other words, kind of putting the get-in, get-out, stay-out into 
effect.
    We see pockets of innovation everywhere. But what we would 
like to do is make sure that we leap forward to making those 
pockets of innovation standard practice. And the Highways for 
LIFE program will help us do that.
    Mr. Coble. Let me revisit the culprit question that my 
friend mentioned. Identify if you will, Mr. Capka, who are the 
main culprits, that contribute to congestion? Of course, 
congestion is one of the obvious thorns in everyone's side as 
we negotiate travel from here to there and yonder.
    Mr. Capka. Sir, we certainly like to use the word culprit, 
but you know, I think it is all of us who contribute to the 
challenges on the highway. It is those of who are dependent 
upon the goods and services that need to use the highways. It 
is those of us who are moving back and forth to work every day, 
during the rush hour. It is those of us going out and using the 
roads for family business, for relaxation,and vacationing.
    We are peaking the use of the highway systems in certain 
locations. Certainly in the metropolitan areas,we understand 
the congestion. Certainly here at the Woodrow Wilson Bridge 
locally, the Springfield interchange, we can see how that can 
snarl traffic almost 24 hours a day. We need to work to improve 
that.
    But I think, as I had mentioned earlier, we can also 
throttle demand and try to attenuate the peak period such that 
we can get the most through the system that we do have. Just a 
small increase in the demand can make a significant increase in 
the throughput of a system.
    Mr. Coble. I thank you, sir. I thank you, Mr. Chairman and 
yield back.
    Mr. Petri. Thank you. Mr. Matheson.
    Mr. Matheson. Thank you, Mr. Chairman.
    Mr. Capka, I agree that as we look forward, it is going to 
take a comprehensive view of how we manage congestion and 
safety and as Mr. Pascrell pointed out, there are some roads 
that are 50 years old, and at this point, they weren't designed 
correctly for the volume we have today. So building a new road 
is one component, but redesign of existing infrastructure is 
important.
    I come from a real fast growing State, the State of Utah, 
and out there with the population growth, new construction is 
also a piece of the mix. Do you think that in terms of the way, 
from a Federal perspective, and we have created a situation 
where there is enough flexibility to address these 
circumstances based on what is going on in the particular local 
areas, so as I said for Mr. Pascrell, it may be an existing 
road that is way beyond where its design indicated it should 
be, and it needs a redesign. Whereas I have an area in 
southwestern Utah, fifth fastest growing county in the United 
States, we need some new construction. Is the flexibility built 
in enough for you to take this comprehensive approach?
    Mr. Capka. Well, certainly, sir, as you and the members of 
the Committee have provided to us, and I would say us at the 
Federal level, us at the State and local level, the Federal 
resources to attack these problems, you have given us a lot of 
flexibility. It is a State-administered, federally-assisted 
program. And the flexibility is built into the funding to allow 
the States to do their own planning, the folks who are very 
local to the problems, to do their planning and do their 
programming and project execution. So I think there is an awful 
lot of flexibility that is provided.
    At the same time, we do need a global view of the system 
and how the system interconnects and how the system responds 
nationally. I think that the Federal role in that perspective 
is very important, to ensure that an overall general view, 
overarching view, is maintained.
    Mr. Matheson. I agree with that, and that kind of leads 
into my next regional-specific question, having to do with the 
Interstate 15 corridor. While I come from the State of Utah, it 
is such a significant corridor between the Los Angeles area and 
the ports there and how we move goods and people, that stretch 
from L.A. up through Las Vegas. Can you give me a sense of what 
the opportunities may be for us to address what right now is a 
huge congestion problem in that particular corridor, which 
affects the rest of the western United States?
    Mr. Capka. Sir, another great question, and one that all of 
us in the Department of Transportation have been scratching our 
heads over, not only in the congestion that you see in Utah, 
but across the Nation. The Secretary's initiative that he 
announced back during National Transportation Week is taking a 
multi-pronged approach. We are looking at the congestion in the 
metropolitan areas, we are looking to relieve congestion at the 
ports that obviously feed the rest of the system. We are 
looking for corridor improvements where we can, as you have 
pointed out in the I-15 corridor, how can we move freight more 
effectively through those areas.
    I think through partnerships and focused attention, we can 
address a lot of those issues. Then it is going to have to 
enter into the priorities of how we invest the resources that 
we do have.
    Mr. Matheson. And the options always cost money, 
unfortunately.
    Mr. Capka. Sir, they always cost money, but you know, there 
are some innovative opportunities for us to take advantage of 
other sources of resources to invest. Whether it is the private 
sector or other public sector opportunities, there are, yes, 
sir, there are solutions to that problem.
    Mr. Matheson. Are you aware of specific thoughts about how 
we can deal with that stretch from L.A. up to Las Vegas? Is 
there a thought about expanding to additional lanes, doing a 
separate road, or do you know where thoughts are about how to 
address that specific corridor?
    Mr. Capka. Sir, I have not given personal thoughts to that 
specific corridor, but Utah Transportation Executive Director 
John Njord, who is very interested in what goes on in your 
State's transportation, and I have been discussing the 
challenges there, both from the mechanics of what need to be 
done, and how can we do them more efficiently. He has been on 
top of that.
    Mr. Matheson. Thank you, Mr. Chairman. I yield back.
    Mr. Petri. Thank you. Mr. Brown.
    Mr. Brown. Mr. Capka, how was the original interstate 
funded?
    Mr. Capka. The original Interstate, sir, in 1956, the 
Highway Trust Fund. And of course, leading up to the 
establishment of the Highway Trust Fund, there were a number of 
different opinions about how the resourcing would take place. 
In fact, the President, I think his preferred method of doing 
it, bonding and such, was not adopted. The Highway Trust Fund, 
pay-as-you-go was established along with the Act in 1956.
    Mr. Brown. And what was the assessment for that?
    Mr. Capka. What were the assessments? Sir, I don't recall 
the exact assessments, but I do believe the gas tax was on the 
order of just a couple of cents a gallon.
    Mr. Brown. Construction cost was a little cheaper back 
then, wasn't it?
    Mr. Capka. Yes, when you talk about estimates that it might 
take to create the system that we have back then, the estimate 
was somewhere just a little less than $30 billion, to create 
the system that was laid out in 1956. Now, of course, we know 
that the system in place, we did some estimates on it, perhaps 
$130 billion is what it has taken to put the entire system in 
place.
    Mr. Brown. Do you have any plans to change the existing 
system and how would you pay for them?
    Mr. Capka. Sir, as far as the planning, we work with the 
States, and there are a number of States who have recommended 
adding features to the Interstate system. We work with them 
individually. How we pay for it, I think we are just about at 
the max of what the 1956 Act provided in terms ofIinterstate 
funding. I think it was able to fund 43,000 miles of 
Interstate, plus or minus, and right now we are at 46,000. So 
the amount above 43,000 was picked up by the use of State-
apportioned dollars and State funding.
    Mr. Brown. Are you looking at going back and looking at 
some of the original ideas to create additional revenue in 
order to accomplish the expansion of the system?
    Mr. Capka. Sir, we are looking at anything we can find. We 
want to be as innovative as we can, so nothing is taken off the 
table, per se, in terms of what is being considered. We are 
also very much looking forward to the recommendations that the 
commission that I spoke about earlier, that is meeting, as we 
speak today, it is meeting over in our NASSIF Building, we are 
looking to that set of commissioners, very talented folks, to 
help us address that problem as well. That is one of the 
primary deliverables from that commission.
    Mr. Brown. So you think the commission report will help in 
projecting planning for expanding the system?
    Mr. Capka. Absolutely, sir.
    Mr. Brown. Okay. Thank you, Mr. Chairman.
    Mr. Petri. Any other questions? Mr. Bishop?
    Mr. Bishop. Just one question. I am sorry I came in late.
    You indicate that as part of the future strategy, you would 
want to encourage States to engage in or at least pursue 
private partnerships and that there are entities that are 
interested in investing significant sums of money in our 
infrastructure and our highway system. Is your comment in your 
testimony limited to just roads and other infrastructure that 
are State-owned or county-owned, or would you also see the 
Federal transportation system, the Interstate system, as a part 
of infrastructure that would lend itself to private investment?
    Mr. Capka. Sir, in principle, we would like the States, and 
all of us who have a role in shaping the surface 
transportation, to have the flexibility that we need--as many 
tools in the toolbox as available. I would not attempt to 
prescribe a solution for a specific State. But if a State is 
looking for, as an example, an opportunity to take advantage of 
what the private sector can offer, we would like to, at the 
Federal level, shape a tool that would suit the State's needs.
    Now, whether it is just State owned infrastructure or 
Federal, we have a couple of pilot programs that were 
introduced in SAFETEA-LU and during TEA-21, the prior 
authorizing legislation, that is piloting an opportunity to 
toll, as an example, existing infrastructure, again on a pilot 
case by case basis that we are hoping to learn from. And we 
would like to learn as much as we can from those pilots before 
we take the next step.
    But as far as Federal interest, if there is a Federal 
interest in the piece of infrastructure, that Federal interest 
will remain.
    Mr. Bishop. Thank you. No more questions, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Duncan?
    Mr. Duncan. Thank you very much, Mr. Chairman. I will be 
very brief, since I wasn't here earlier. We are going to have a 
celebration in Thursday about this 50th anniversary, and 
certainly the Interstate highway system has changed the face of 
America, and it has helped improve our economy by making the 
movement of people and goods much faster and easier. It is 
amazing to me to see what has happened, though, because I have 
mentioned before that when I was growing up, most families had 
one car, some families had two cars.
    But I don't think we ever knew of any family that had more 
than two cars. And now you have the mother, the dad, both the 
teenagers, they all have vehicles, and maybe they have a pickup 
truck in addition to that, families have four or five vehicles 
sometimes. It is just amazing.
    Just to give you an example, I can remember when Knoxville 
to Nashville, which is 185 miles, it took six hours to do that 
trip. Now it takes three. I remember going from Knoxville to 
Florida, and it took two 10 or 11 hour days to drive that. Now 
you can go in one long day. So there have been some wonderful 
things.
    But I guess really what I am wondering about, the number of 
registered vehicles has gone way up, the number of vehicle 
miles traveled has gone way up. What do you see in the future? 
Is there any really exciting research that is going on in your 
office that you could tell us about? What gets you excited 
about the future? Are we going to see changes? The people love 
the Interstates, but on the other hand, you also hear people 
say they don't want to see the whole Country paved over. I 
remember when the Interstate, though, in Knoxville was just two 
lanes, west Knoxville. Now we are going to five lanes on each 
side and the traffic is horrendous.
    What do you see for the future?
    Mr. Capka. Sir, that is a great question. I think all of us 
and our concept of the freedom to move kind of take for granted 
the impact that it puts on the infrastructure that we have 
today. So I think in the future there is going to be a 
recognition that we have to use the system more wisely. And 
perhaps through value pricing, as an example, using the model 
of a utility to help us manage the use of the discrete amount 
of capacity that we have in our system more effectively is an 
appropriate way to look at that.
    Secondly, I am really excited about the intelligent 
transportation system advancements that have been made over the 
years, but even more so very recently. What we are seeing in 
terms of 5-1-1 type communications with drivers, is an ability 
to call up and kind of plot your course based upon the existing 
conditions of the day. So I think communications between the 
drivers and the infrastructure, if you will, is going to be 
extremely important. I think the technologies are going to make 
our system much safer to use. Although certainly as we pointed 
out, it is probably the safest system that we have, certainly 
in the Country, if not the world, we are still losing 43,000, 
44,000 Americans every year on our highways. So safety, I see 
some very encouraging advancements along those lines.
    But the use of technology, the prospects of all of us 
looking at the system that we have today as a utility, 
something that we have to be frugal with as we go forward, will 
make a difference in how we maximize the throughput capacity of 
our surface transportation system.
    I might also say, the problem is not just one of the 
highways. It is a multi-modal, inter-modal kind of problem. I 
am very much encouraged to see, within the U.S. Department of 
Transportation, and other areas, a multi-modal view of how we 
need to address the challenges that we have in today's system.
    Mr. Duncan. All right, well, thank you very much, and 
congratulations, and thank you, Mr. Chairman, for calling this 
hearing today.
    Mr. Petri. Thank you, Mr. Duncan.
    Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman, 
and the Acting Ranking Member Pascrell. Thank you so much for 
bringing this very important hearing. It is great to be here 
together to celebrate 50 years of the Interstate highway 
system, a salute to the late President Dwight Eisenhower for 
his vision in creating this extremely important highway.
    You may not be aware of this, Mr. Capka, but I created and 
founded the Goods Movement Caucus in the 108th Congress to 
examine freight issues as it relates to that. So I am 
particularly interested in the Interstate's impact on our 
Nation's economy and our ability to move goods from ports to 
inland States.
    There is a tremendous amount of traffic, as you might well 
know, on the I-710 that leads from the ports of Los Angeles and 
Long Beach and out to downtown rail yards and throughout the 
Country. While there are adverse health and environmental 
effects, given the tremendous amount of traffic, we cannot 
simply shut down one of our Nation's most important roadways.
    So does the FHA devote sufficient resources to balancing 
our economy engine, while the health of those who live next to 
these railroads are taken into consideration?
    Mr. Capka. Yes, ma'am, thank you very much for your 
observations there. I think you have put your finger on what I 
would call one of the congestion hot spots in the Nation. I 
know that you are very actively engaged in pursuing solutions 
there.
    The short answer to your question is yes, we need to 
address both issues concurrently. I think that by addressing 
even the congestion and moving the goods in and out of our 
ports more efficiently will also solve some of the community 
problems. Idling trucks just don't do a whole lot for the 
quality of life. So what we want to do is ensure that we have a 
good system of moving goods in and out of the ports.
    In Secretary Mineta's congestion initiative, which I 
believe you are familiar with, he has focused specific 
attention on the port problems that we do have. Also, he has 
focused attention on corridors, which will move the goods from 
the ports away from the port areas and on to different areas of 
the Country efficiently. So we have recognized that congestion 
is a multi-faceted problem that affects many people from many 
different perspectives. We are very, very much energized to 
tackling that.
    Ms. Millender-McDonald. Well, I thank you very much for 
that. The Committee recently met to discuss the impact of 
intermodalism, using multiple transportation methodologies to 
move goods. I am particularly interested in rail, because I am 
the creator of the Alameda Corridor, that everyone knows about. 
It is up to just 37 or 38 percent of its capacity. We are 
looking at now trying to see whether we can use rail from the 
docks of the ports as opposed to mini-trucks, as you know, they 
are going to quadruple by the year 2015, 2020, in the Los 
Angeles-Long Beach area.
    So do you feel the FHA is engaged in studying the impacts 
of this trend, and hopefully we can perhaps look at rail as an 
alternative, especially given the environmental issues that we 
faced with, with idling trucks and the emission that comes from 
them?
    Mr. Capka. Another great question. And yes, we are. We are 
working to establish national freight policy. And we use the 
word national rather than Federal to connote the fact that it 
is not just the Federal organization, Federal agency, who will 
be looking at this, but it is a collection of all the 
stakeholders: State, local level, as well as public and private 
sector, because as you know, the rail is a privately-owned and 
operated system. The rail is being taxed in terms of capacity 
just like the trucking industry is being taxed in terms of 
their capacity to move freight.
    So the solution cannot be one mode, the solution has to be 
multi-mode. And rail is certainly a major player in helping us 
address the issue.
    Ms. Millender-McDonald. Thank you, so much, Mr. Capka, for 
being here as we celebrate 50 years.
    Mr. Chairman, I will ask unanimous consent to place my full 
statement in the record.
    Mr. Petri. Without objection, so ordered.
    Ms. Millender-McDonald. Thank you and the Ranking Member.
    Mr. Petri. Any questions, Mr. Boozman?
    Mr. Boozman. None, thank you, Mr. Chairman.
    Mr. Petri. Mr. Shuster.
    Mr. Shuster. Thank you, sir. I appreciate that.
    Mr. Capka, thank you for being here today. There are some 
members on my side of the aisle that believe that the Federal 
Government should do less as far as transportation, a national 
transportation system. I fundamentally disagree with that. I 
believe that our national transportation system is an essential 
responsibility of the Federal Government. In fact, laid out in 
the Constitution, the three things the Federal Government was 
charged with was national defense, commerce, promoting and 
regulating, and making the post roads. I think our national 
transportation system does all three of those things.
    So when I look at our national transportation system, we 
have to either better utilize what we put through the pipe or 
make the pipe bigger, it seems it comes down to those two 
things. And you have talked here about that, both those things 
today. I wondered if you might get into a little more specifics 
about better utilization. I know we talked about the 
intelligent transportation. I think those things are good, and 
there is a place for them.
    But I don't know how that, to some degree it helps, but the 
pipe still needs to be bigger, I think. So can you talk about 
other ways that we can better utilize our highway system, 
besides using intelligent systems?
    Mr. Capka. The congestion problem, if we set aside added 
capacity in terms of added infrastructure, is also a matter of 
how do we better use the infrastructure that we do have. It is 
a matter of providing information to the users and encouraging 
users to use it at the most opportune time. So throttling 
demand I think is very important. And there is some self-
leveling that occurs when folks just get so frustrated with the 
congestion that they go elsewhere.
    But there is a different way of handling that problem. I 
think providing information also to the drivers and the users 
of the system will help them make those smart decisions. You 
had mentioned and I had mentioned earlier the technology that 
is making itself available to do just that. And also to set up 
a system where our newer vehicles can talk to the 
infrastructure and even make it safer. And certainly a safer 
infrastructure with fewer incidents that need to be policed off 
the highway, those non-recurring incidents of congestion is 
also a factor in how we make the system more responsive and 
with increased throughput.
    Mr. Shuster. Have there been any thoughts given to 
reversing the flow of traffic? For instance, in Washington, 
D.C., everybody comes into Washington, D.C. I for the past five 
years thought that the Federal Government, private industry, at 
some point the light bulb has to go on in somebody's head and 
say, you know, we don't need to build our facility inside the 
Beltway. We can build it in southern rural Pennsylvania or 
rural Maryland or rural Virginia, 60 or 70 or 80 miles outside 
of the city of Washington, D.C. Then people can commute from 
rural Virginia or rural Pennsylvania into that facility or live 
in suburban Washington, D.C. and do a reverse commute out. Has 
any thought been given to that, are people talking to you about 
that?
    Mr. Capka. Well, certainly in terms of land use and where 
business centers would develop, that is certainly part of the 
solution. In fact, we would certainly encourage that. And we 
are starting to see that in a number of different locations. As 
you pointed out, it is kind of a blinding flash of the obvious 
that some of these solutions are there.
    The other is, using technology to avoid having to get up on 
the highways to begin with, whether it is tele-commuting or 
other means of virtual business processes. There are some other 
opportunities that are emerging in that same vein to reduce the 
demand for folks to all converge at the same place at the same 
time.
    Mr. Shuster. And a lot of it comes down to dollars--I see 
my time is running out--but you keep mentioning value pricing, 
which leads me to believe that tolling roads is something that 
is on your agenda. That would seem to me, value pricing, how do 
we get more money into the system, because we can come up with 
a lot of great new technologies, but I still think that pipe 
needs to be made bigger. So is that what you are talking about, 
value pricing, tolling roads and those types of things?
    Mr. Capka. Sure, in value pricing the concept is that your 
toll is more expensive during peak hours, and less expensive 
during off-peak hours. So you toll for the value of what you 
are getting. Much like utilities and electricity in the summer 
time, as an example, you can help the discretion used by 
drivers to stay away from the peak.
    Mr. Shuster. But that would suggest that you are saying we 
need to toll the Beltway around Washington, we need to add 
tolling lanes to it, we need to toll different, because there 
are really very few toll roads in this Country to be able to, 
with that pricing, help to administer who is going to be on the 
roads and when they are going to be on incentives, those types 
of things.
    Mr. Capka. There are a number of States right now who are 
already exploring the potential for exactly that, the high 
occupancy toll. In fact, Virginia is one. So, as you had 
suggested, here in the Washington metropolitan area, Virginia 
is looking at variable pricing themselves.
    I was just out in Denver a week or two ago and I helped the 
city there convert an HOV lane to include toll-paying, value 
pricing toll-paying drivers. So there are a number of 
communities that are looking to take advantage of those kinds 
of opportunities.
    Mr. Shuster. Okay, thank you, Mr. Chairman.
    Mr. Petri. Thank you. Any other questions? Mr. Sodrel?
    Mr. Sodrel. Thank you, Mr. Chairman. And thank you for 
being here today, Mr. Capka.
    I personally grew up on the Interstate highway system. My 
great-granddad was in river transportation and his son and my 
dad got into the trucking business. I had a chance to watch it 
from the ground up from the time I was a kid. I think it has 
had the greatest impact on the quality of life and delivering 
goods into the United States than anything we ever did.
    But as we look forward, it seems to me we have two big 
challenges. One is how we make the highway and bridge assets 
last longer. I think we are doing some things in that regard, 
like cable-stay bridges are lower maintenance than the old box 
girder bridges, and pavement and so on. But it seems the other 
thing is, how do we continue to adequately fund the system? I 
know in our case, over a 20 year period, we doubled our miles 
on the same gallons, everything from aerodynamic devices to 
devices that lowered the parasitic friction, or loss in 
carrying goods down the highway, down to radial tires, gearing. 
We thought it was in the national energy interest, we also 
thought it was environmentally the right thing to do.
    But what happens inadvertently is we are paying less per 
mile to use the highways than we used to. If the fuel tax per 
gallon remains fixed, which it has for some time, and you 
travel farther on the same amount of gallons, that on a per-
mile basis we are paying less. And CAFE has caused a lot of 
people in private vehicles to pay less, because they are 
getting better fuel mileage than they did before. We also have 
alternative, renewable sources of energy, electric cars, we 
have all kinds of things that will degrade the amount of 
revenue available to maintain roads and bridges, while the 
construction is traveling up with the per gallon cost of fuel.
    So I guess my question is, is everything on the table here 
as the commission goes forward, including the fact that we 
spend about 22 percent of the Highway Trust Fund on things 
other than bridges and highways? And I don't know if we can 
afford that luxury any longer. I would just like comments on 
everything we are looking at to try to make sure we have 
adequate revenue to keep the system operable.
    Mr. Capka. Great question, sir, and you put your finger on 
a number of the challenges that we are facing. Certainly 
finding the revenues that are required to support what needs to 
be done in the future, and certainly the economy is going to 
demand that we have the infrastructure to maintain its position 
in a global economy here in the future.
    The commission is tackling the full gamut of issues, with 
needs. What are the needs of the system, what is the Federal 
role, what is the State role, what are other roles that could 
be played by public and private sector entities? What should 
the Federal investment be, what should it cover? And then how 
do we raise the resources and what should be given to those 
practitioners who are responsible for delivering the needs? 
What tools need to be in the tool boxes?
    All of those, I think, are in play. I sat through 
yesterday's session with the commission and this morning, and 
those are the issues that are being teed up right now for the 
next year's worth of deliberative work there.
    Mr. Sodrel. Just kind of a follow-up, are we doing any 
experimenting on road construction techniques or materials that 
will last longer or be lower maintenance over the long term as 
well?
    Mr. Capka. Absolutely. That is key to accomplishing what 
you suggested, to make bridges last longer, to make the 
pavements last longer, so we can be better stewards of the 
dollars that we are investing today. Absolutely.
    One of the reasons that we are very interested in sharing 
the research and technology programs that we have throughout 
the highway community remains strong, and that we have a 
Federal role in pursuing the advanced research which uncovers 
the breakthroughs in materials and techniques that will be very 
important.
    The Highways for LIFE program that you and the members of 
the Committee provided to us in the SAFETEA-LU legislation is 
another example of doing exactly that, finding the pockets of 
excellence, great ideas and innovation, and making it standard 
practice. So when materials are shown to be better materials, 
we can integrate that into the standard practice very, very 
efficiently, and everyone take advantage of it.
    Mr. Sodrel. Thank you, Mr. Chairman. I yield back.
    Mr. Petri. Thank you. The commission was mentioned, and I 
guess they met this morning. I just thought I would ask you 
before you leave if you could tell us how they are doing. As 
you know, a lot of people are all looking forward to them doing 
their work, and independent, and hopefully thinking even if it 
is not conventional ideas, coming up with some new ideas, are 
helping to explore options as we go forward with funding the 
Federal system, and defining its scope. If the resources 
continue to shrink relative to our economy at the Federal 
level, then we are going to somehow figure out how to focus our 
effort better, or we are going to basically thin things down 
and not get much value, or as much value for what we are 
spending.
    Would you care to comment on how they are doing so far?
    Mr. Capka. Yes, sir, I would be delighted to do that. I 
have participated at least as an observer, and also a briefer, 
during the first two sessions of the commission. I would tell 
you that each one of the commissioners is engaged and engaged 
very intently. I gave a presentation yesterday on my views of 
the surface transportation from a highway perspective, and had 
some very insightful questions addressing exactly, sir, the 
questions that you are raising today.
    How are we going to make the system as responsive as it 
needs to be in the future? What are the roles of the team 
players, at the State level, the local level, the Federal 
level? How are we going to raise the required requisite 
resources to ensure that we are able to handle the challenges 
and the requirements of the system in the future?
    All the questions that are being teed up today and 
yesterday were devoted to bringing all the commissioners up to 
a common level of understanding of what data exists, where the 
challenges are and I believe the commission is working very 
well to tackle the mission that it has over the next 12 months.
    Mr. Petri. Well, thank you very much. We appreciate your 
testimony, and you mentioned at the beginning of your remarks 
the fact that our Secretary of Transportation is retiring. I 
know I speak for our entire Committee, as one of his former 
colleagues, serving under his leadership, that we thank him for 
his service and we all wish him very happy retirement and 
success in the next chapter.
    Mr. Capka. Thank you, sir. I will pass it on to him. I have 
a feeling he is looking over my shoulder right now.
    Mr. Petri. All right, thank you.
    The next panel, Dr. Jonathon Gifford, professor at George 
Mason University; Tom Lewis, professor and author, Skidmore 
College; and Gene McCormick, Chairman of the American Roads and 
Transportation Builders Association.
    Gentlemen, we welcome you. We thank you for the prepared 
remarks that you have submitted for this occasion, and we would 
invite you to summarize those remarks for the Committee on the 
record, approximately five minutes, beginning with Dr. Gifford.

  TESTIMONY OF JONATHAN GIFFORD, PROFESSOR, SCHOOL OF PUBLIC 
   POLICY, GEORGE MASON UNIVERSITY; TOM LEWIS, PROFESSOR AND 
  AUTHOR, SKIDMORE COLLEGE; EUGENE R. MCCORMICK, SENIOR VICE 
  PRESIDENT AND CHAIRMAN OF THE BOARD, PARSONS, BRINKERHOFF, 
      QUADE AND DOUGLAS, AND CHAIRMAN, AMERICAN ROADS AND 
              TRANSPORTATION BUILDERS ASSOCIATION

    Mr. Gifford. Thank you for the opportunity to appear here 
this afternoon on this very important occasion. The planning, 
design and construction and ongoing renewal of the interstate 
highway system together are a really extraordinary 
accomplishment in the history of our Nation. The system is the 
envy of the world, and it is being emulated today around the 
world, from China to India to the expanded European Union.
    I would like to focus my remarks today on the benefits of 
the interstate highway system and on the lessons we can learn 
from it. First, safety impacts have already been mentioned, and 
that is perhaps its most important legacy. As shown in this 
chart, the red line on the top is the fatality rate on non-
interstate highways. The blue line on the bottom is the 
fatality rate for interstate highways, starting in the 1960s 
and going up until recently.
    As you can see, the fatality rate was less than 3 per 100 
million vehicle miles in the 1960s, about half the rate of 
other highways. Over time it has declined, as mentioned 
earlier, to one death per 100 million vehicle miles today.
    Another important effect of the interstate is that it 
demonstrated the distinctive design features of the interstate 
system for use off the system, such as medians between opposing 
lanes, grade-separated interchanges, and high design speeds. 
And that demonstration effect also brings safety benefits off 
the system.
    Together, these on-and-off-system effects have saved tens 
of thousands of lives over the last half century. That is a 
tremendous legacy.
    The second legacy is the effect which has already been 
mentioned on American lifestyles. The interstate development 
occurred during a time when the Nation was engaged in a massive 
shift of housing, retail and employment to the suburbs. Demand 
for suburbanization arose from many sources, besides the 
interstate, including the G.I. Bill, G.I. housing loans, 
mortgage interest deductibility and so forth. All of these 
combined to contribute to America's suburbanization. But it is 
fair to say that the interstate was a powerful force in shaping 
how much and how quickly suburbanization occurred.
    Today the majority of Americans reside in suburbs. The 
interstate system is an integral part of everyday life. Almost 
every American household has a range of choices of where to 
work, live, play, study and worship that would not be possible 
without the interstate system.
    The third legacy is that the interstates facilitated a 
fundamental transformation of our freight and distribution 
system. Truck utilization has soared almost 200-fold in the 
last 50 years. That is a rate of increase of 12 percent per 
year for a period of a half century. Today, virtually every 
item in our workplaces and households has reached us via the 
interstate system.
    This shift to truck-based distribution allows our economy 
to have the world's most efficient supply chain management 
system. Our total logistics costs have declined from 16 percent 
of our national product to 10 percent, 16 percent in 1980 to 10 
percent today, or recently in 2001, at the same time as our 
freight volumes have exploded.
    The interstate has also taught us some important lessons. 
First, it has taught us that large scale social and 
technological systems like the interstate are complex and 
unpredictable. Many of the consequences of the interstate 
system, both positive and negative, were not anticipated. As 
Mr. Capka indicated earlier, the Bureau of Public Roads 
predicted in 1937 that trucks would never carry a significant 
portion of our Nation's freight because they would be 
inexorably squeezed by rail on the bulk commodity side, and air 
freight on the high value freight side.
    Mayors clamored for urban interstates as a way to 
revitalize their downtowns. Transit industry owners believed 
that their primary concern was being exempted from motor 
vehicle taxes.
    Reality turned out to be dramatically different. So going 
forward, we really need to be humble about our ability to 
predict consequences, and that supports research and careful 
monitoring and measurement as we go forward in order to 
continue to make our programs benefit the economy.
    The second lesson we have learned from half a century of 
interstate building is how much we value community 
preservation, social justice and environmental stewardship. In 
the early years, the interstate had serious adverse impacts on 
many older cities, especially on poor and disadvantaged 
communities. Our urban renewal policy of using interstate 
highway investments to remove blighted areas displaced tens of 
thousands of poor African-American citizens. We also sought to 
build interstates through parks and environmentally sensitive 
spaces.
    Congress soon responded with landmark environmental 
legislation such as the Clean Water Act and the National 
Environmental Protection Act of 1969. These are laws that 
continue to shape our policies today.
    Finally, and most importantly, the interstate shows that 
the development of a carefully engineered and planned system 
can bring extraordinary benefits to our Nation. This 
achievement arose from strong Federal leadership for planning 
and financing that is almost unprecedented in our 230-year 
history. The Nation has spent $420 billion in 2001 dollars on 
the interstate system, $370 billion from Federal sources.
    The system development has adhered generally to the 42,000 
mile network that was laid out between the 1930s and the mid-
1950s. For almost four decades, Congress was satisfied to focus 
on building the interstate as planned at that time, and special 
projects were a rarity. No other system in our history, with 
the possible exception of the air traffic control system, has 
commanded such long-lasting Federal leadership and support.
    So in closing, let me say that these legacies and these 
lessons make a strong case for strong and continued attention 
to the stewardship and renewal of the interstate that we have 
built, as well as careful consideration of options for 
expanding and adapting it to the challenges and realities of 
the 21st century. Thank you.
    Mr. Petri. Thank you.
    Dr. Lewis.
    Mr. Lewis. Thank you very much for inviting me this 
afternoon.
    At 11:15 on Monday morning, July 7th, 1919, a 3-mile 
caravan of Army motorcycles, cars, and trucks, 260 enlisted 
men, 35 officers and a 15-piece van provided by the Goodyear 
Tire and Rubber Company, set out from Lafayette Square in 
Washington for Union Square in San Francisco, 3,000 miles away. 
It took 62 days for those soldiers to cross the Country. They 
averaged but five miles an hour. Some days they went as few as 
three miles. Breakdowns and accidents were frequent. In the 
Sierra, they lost a truck into a steep ravine.
    One 28 year old Army major on the trip described it as a 
journey through darkest American with truck and tank. The 
condition of the roads ranged from average to non-existent. 
America, that officer said in his report to superiors, must 
have better roads.
    Thirty-seven years later, on July 29th, 1956, that Army 
officer, Dwight David Eisenhower, now President of the United 
States, signed into law the legislation creating the interstate 
highway system. That signature changed the landscape of America 
and helped to bring about the extraordinary economic engine 
that has enabled this nation to remain the preeminent power in 
the world. The story of the interstates has deep roots in our 
desire for freedom and movement, and our knowledge that we are 
at liberty to resolve our destiny in our vast landscape.
    For centuries, we Americans have relentlessly celebrated 
our mobility. Our forebears from Europe and other continents 
came to invent and reinvent themselves in unfamiliar places. 
Eight decades after they formed the Union, they took pains to 
manumit those whom they had brought in chains, and in a limited 
way, granted the newly emancipated the freedom to go forth and 
invent themselves also.
    Across the landscape of our continent, we Americans have 
left the imprint of our movements, paths, roads, turnpikes and 
canals in the 18th century, railroad tracks in the 19th and an 
ever-increasing number of wide roads and streamlined highways 
in the 20th. Today, 50 years after President Eisenhower signed 
the legislation creating the interstate highway system, we can 
see how these roads have changed our landscape and our lives.
    If you go west across the Nation on Interstate 40 from 
Wilmington, North Carolina, you will pass through the tobacco 
country of Greensboro and Winston-Salem, the Great Smokey 
Mountains, the city of Nashville, home to country music, 
Memphis, the city of W.C. Handy and Elvis, fireworks shacks in 
Arkansas, oil derricks in Oklahoma, the remnants of old Route 
66, the parched, dusty towns of the Texas Panhandle, the 
Continental Divide in New Mexico, the banded purple, scarlet 
and pink tints of the Painted Desert in Arizona, and the 
desolate blur of California before reaching the end of the 
interstate at Barstow.
    And along the way, you will pass 36 KOA campgrounds, 37 
Holiday Inns, about 100 Wal-Marts, 46 Burger Kings and 82 
McDonalds. That is a Big Mac for every 31 miles of interstate.
    Think of where our economy would be today if there were no 
interstate highway system. There are approximately 16,000 exits 
on more than 40,000 miles of interstate. With the interstate 
highway, the Federal Government created thousands of economic 
opportunities for development at each of those places. Those 
exits have functioned in the same way that stops on the 
railroad did in the 19th century, but with one difference: the 
railroads offered but a few hundred stops, or economic 
opportunities.
    In building the interstate highway system, we revealed on 
that great stage all our glory and sometimes our meanness, all 
our vision and sometimes our shortsightedness. We revealed all 
of our democracies, virtues and sometimes its failings. As the 
American poet Walt Whitman said more than a century ago, ``Oh, 
public road, you express me better than I can express myself.''
    So let us celebrate all that Dwight David Eisenhower 
achieved with his signature on June 29th, 1956. Though I doubt 
he realized how momentous that occasion was, the President 
approved a bill that ranks with Social Security, the G.I. Bill 
of Rights, and civil rights legislation as the most important 
bills in the 20th century.
    Thank you.
    Mr. Petri. Thank you.
    Mr. McCormick.
    Mr. McCormick. Good afternoon, Mr. Chairman, Representative 
Bishop, members of the Subcommittee. My name is Gene McCormick. 
I am the Senior Vice President and Chairman of the Board of 
Parsons, Brinkerhoff, Quade and Douglas, a planning, 
engineering and construction management firm. I am appearing 
before you today as the 2006 Chairman of the American Road and 
Transportation Builders Association.
    Nearly 50 years ago, President Dwight Eisenhower signed a 
law authorizing the construction of the interstate highway 
system. It was the greatest domestic achievement of his 
presidency. It also represented the fulfillment of the 1901 
vision of ARTBA founder, Horatio Earle, who advocated a 
federally-built capital-connecting government highway system, 
which he said would connect every State capital with each other 
and our Nation's capital here in Washington. ARTBA is very 
pleased to be a part of this Subcommittee's observation of the 
50th anniversary of this milestone legislation.
    Now that the core interstate highway system is complete, 
there are those who believe our work is complete. Mr. Chairman, 
nothing could be further from the truth. In fact, much remains 
to be done to assure we protect our past investment for future 
generations. The interstate highways are the foundation of our 
Nation's surface transportation system. Traffic demand 
continues to grow. In the last decade alone, the amount of 
travel on the interstate highways grew more than 36 percent. 
During that same decade, truck traffic nearly doubled.
    All of this is putting great strain on our network of 
interstate highways. And according to the latest report from 
the Texas Transportation Institute, 59 percent of roads in 
urban areas are congested during peak periods each day, 
compared to only 34 percent 20 years ago. The amount of peak 
period travel on major urban roads under congested conditions 
has grown from 32 percent to 67 percent.
    The cost of that congestion is estimated at nearly $70 
billion a year in lost productivity and is the equivalent of 
$520 per year per capita in our largest 75 metropolitan areas 
alone.
    This kind of travel demand also takes a toll on the 
physical condition of the interstate highway system. According 
to the U.S. DOT, an average annual investment of $18.8 billion 
in 2002 dollars would be necessary to just maintain current 
physical and operating conditions on the interstate highways 
over the next 16 years. And this figure does not take into 
account the rising cost of highway construction materials and 
labor, which have increased by over 20 percent in the last two 
years alone.
    By contrast, all levels of government invested only $15.1 
billion in 2003 and $14.7 billion in 2004 on interstate 
highways. This represents a gap between investment levels and 
system needs of between $4 billion and $5 billion annually. 
While we can't predict how much will be invested in interstate 
highways in future years, the amount to maintain current 
physical conditions and levels of congestion will grow from $20 
billion in 2004 to $29 billion in 2015, far more than is being 
currently invested.
    This Subcommittee's interest in the interstate highway 
system and today's hearing is certainly a positive sign that 
the needs of our interstate highways will be met in the future. 
As we prepare to celebrate the 50th anniversary of the system, 
this milestone achievement provides an opportunity to launch 
the much-needed public dialogue on how the challenges facing 
the interstates and other components of our Nation's 
transportation network should be addressed.
    We clearly need to renew our vision of the interstate 
system, and in fact, our surface transportation system. In my 
judgment, we are losing global competitiveness on our surface 
transportation system today. Yet we can look back at the 
interstate system and see three key lessons, key elements that 
have served us well. One was the creation of the Highway Trust 
Fund. Secondly, the partnership between the Federal, State and 
private sector in delivering the project, the interstate 
system. And thirdly, a multi-year reauthorization period for 
Federal highway legislation.
    We at ARTBA are committed to maintain that partnership role 
with you and with the public at large as we move forward upon 
celebrating the 50th anniversary, and create that vision for 
the future. Thank you.
    Mr. Petri. Thank you, and now we will turn to questions, 
beginning with Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. My question is for Mr. 
McCormick. You make reference to the challenges that we must 
confront in the future. At the risk of oversimplifying our 
principal challenge, it would seem to me, would be to identify 
sufficient resources to both maintain the system that we have 
and in fact expand it or improve it.
    When we began the process of looking at the highway 
reauthorization, we began originally at I think $375 billion 
over six years. The notion was that we were going to increase 
the gasoline tax, so as to increase proceeds into the trust 
fund. We backed away from that, as you know, we ultimately 
passed $284 billion over six years.
    In terms of the funding challenge that we have, what is my 
perspective, what advice can you give us as public policy 
makers? Is the gasoline tax something that ought to be 
seriously considered? Should we be more aggressive in terms of 
pursuing public-private partnerships, such as are currently 
being pursued in some cases? Is bonding really another way to 
go? What is your thought on that?
    Mr. McCormick. Thank you, Representative Bishop. It is 
probably a little bit of both, quite frankly, in my judgment. 
Yes, I do believe that there is a role for some increased 
tolling, some increased public-private participation and 
partnership. But fundamentally--and Committee members have 
mentioned it earlier--the Federal role in terms of providing an 
interstate-like system for our national, both interstate 
commerce and defense, purposes seems to me to clearly suggest a 
strong Federal role.
    And yes, I do believe the current mechanism of the gas tax, 
as politically unattractive as that may be right now, is 
probably part of the future. But also in the longer term, there 
are probably other funding mechanisms, but still founded upon 
the concept of a user fee that I think has served us so well 
over the years.
    Mr. Bishop. Thank you. No more questions.
    Mr. Petri. Thank you. Are there questions on this side? Mr. 
Brown?
    Mr. Brown. Mr. Chairman, if I might, I heard you mention 
user fee. Is that, do you think that is a viable alternative to 
tolls on the interstates?
    Mr. McCormick. I didn't mean to suggest, Mr. Brown, that I 
thought the best approach was to toll all the interstates. 
There may be certain areas, certain corridors, certain 
conditions, certain interests at the local and State level that 
make that a viable alternative. I think it would take quite a 
public awareness campaign, if you will, in terms of a broad 
application of tolls nationwide on the entire system.
    Mr. Brown. Well, how would you feel about enhancing or 
raising the Federal gas tax?
    Mr. McCormick. I do believe in user fees. The cost that we 
as individual users of the system pay today is an extremely 
good bargain. The 18.4 cents per gallon Federal gas tax, which 
represents roughly 6 to 7 percent of the total price of fuel 
that we pay today seems to me to be a bargain. Of course, that 
gas tax has not been increased in 13 years, if I recall 
correctly. And we have seen highway construction costs increase 
about 20 percent in the last 2 years alone.
    So yes, I think we collectively need to develop a broader 
public awareness of the value that is derived from that Federal 
gas tax and create the support for considering a user fee 
increase.
    Mr. Brown. Mr. Chairman, I know that this is the last panel 
before the cake, but could I give those other two guys a chance 
to respond to that same question, if they have a comment?
    Mr. Petri. Sure.
    Mr. Lewis. I would like to respond. To begin with, in 1956, 
the gasoline tax was raised 3 cents, I believe you might have 
been the gentleman who asked that question earlier this 
afternoon. The Federal gasoline tax stood at 3 cents.
    If you cost that out in 2006 dollars, that is equal to 22 
cents. At the moment, our gasoline tax is 18.4 cents. We have 
been falling behind in the gas tax revenues in terms of real 
dollars charged for a gallon of gas since probably for the last 
15 years. This to me seems a compelling argument for raising 
taxes.
    I actually think that Congress should raise taxes a lot, 
lot more. You will see in my extended remarks, which I believe 
will be put into the record, that they should be significantly 
raised. I think that the tax system should be used for two 
things: first, for building and rebuilding the interstates and 
maybe getting an interstate to Myrtle Beach, I believe you are 
the gentleman from Myrtle Beach.
    Mr. Brown. Amen.
    [Laughter.]
    Mr. Lewis. I can give you a historical reason why you 
didn't get a road to Myrtle Beach, and that was because in 1956 
or whenever it was planned, the system was planned a little 
earlier, probably Myrtle Beach did not have 50,000 people. And 
the interstate connected communities of 50,000. But now maybe 
you deserve one.
    My point is that Myrtle Beach, of course, needs an 
interstate, but the rest of the interstates need to be 
maintained and rebuilt. And the second point that I would make 
is that part of that gasoline tax, very much increased gasoline 
tax, should be put into the seeking of an alternative fuel 
source, and alternative energy sources. That would have the 
effect ultimately, I believe, of diminishing our reliance upon 
foreign oil.
    And by the way, oil is the four-letter word here and it 
hasn't been mentioned this afternoon. I think I have just been 
the first person to say it. But it is a very serious issue.
    Mr. Brown. I think one issue that we will be taking up this 
week on the House floor is the offshore drilling, which would 
at least allow some of the royalty fees to remain on the coast 
where those wells would be put. That could be an alternative 
source for revenue for transportation.
    And I do thank you, my time is expired.
    Mr. Gifford. May I respond at this time? I would say two 
things in response to the gentleman's question. One, it was a 
very difficult battle to put together the highway trust fund in 
1956. There was an extended period of 12 years after World War 
II, where we wrangled over how to pay for the interstate 
system. And there was something compelling about the 
interstate, there was something compelling about the vision of 
this system that would allow you to travel from coast to coast 
without a traffic signal that I think captured the imagination, 
not only of the American public, but also members of Congress 
and the Executive Branch and the States.
    So there was a broad-based coalition that was extremely 
committed to the completion of the interstate. And as I 
mentioned in my statement, up until the 1990s we had a program 
that was basically committed to building out a map that had 
been drawn in the 1950s. I think today the commissions that Mr. 
Capka mentioned are wrestling with is, is there a vision going 
forward that will carry us the next 50 years. And I think there 
isn't yet an emergent vision that will fulfill that role. I 
think until you have something that is compelling to the 
American people, you will have difficulty overcoming the 
resistance to raise taxes and make tough choices.
    One of the beauties of the interstate system was that it 
was this 42,000 mile system that was conceived in 1956 and 
finalized in 1956. Yet, one of the weaknesses is that that map 
was drawn in 1956 and places like Myrtle Beach and other places 
around the Country that weren't big enough at that time to 
merit an interstate connection have been excluded from it.
    So there was an idea that we could finish our interstate 
and then we had done our work. But you will never finish the 
economy. It is an ongoing enterprise that requires continued 
support. Building the public commitment to that is a real 
challenge.
    Mr. Petri. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I just want to add my 
words of thanks for your hosting this hearing and for the 
presenters. My daily service here kind of embodies the benefits 
of the interstate system. I commute from central Pennsylvania 
every day, just under 100 miles, Interstate 83, 295, 95, 495, 
695 and thank goodness for the interstate system. It allows me 
to be a member back in my district every day and hands-on dad 
to my 10 year old and 7 year old sons.
    I appreciate the efforts of our panelists in helping to 
raise the awareness of not just maintaining but improving and 
expanding the interstate system to the realities of 50 years 
later in 2006. Hopefully we will have success as we go forward 
in finding the means of achieving this very important goal. So 
thanks again for your presentations, and Mr. Chairman, thanks 
for your efforts in leading the charge here. Thank you.
    Mr. Petri. Thank you.
    Mr. Diaz-Balart, any questions?
    Mr. Diaz-Balart. No thank you, Mr. Chairman.
    Mr. Petri. If not, just before we conclude, I will give 
each of you a chance to make a concluding remark, if you would 
care to, to the Committee. I feel, as I think maybe some others 
in this room, do, a little bit of a child in this. I got my 
driver's license in 1956. And before that, I traveled with 
grandparents and so on across the Country. The roads and 
conditions were far different than they are today. I think 
there was one interstate type system, the Pennsylvania 
Turnpike, and the Garden State Parkway. Some things were done 
with a little bit of a different concept than our interstate 
system and are in the process even now of being rebuilt.
    But this clearly is something that has transformed our 
Country and is vital. Its continued success and maintenance and 
modernization and expansion as the economy and population shift 
are vital to our well-being as a Country and to our efficiency 
as a Country and our international competitiveness as a 
Country.
    I think there was some testimony to the effect that costs 
of logistics in the United States has dropped from 15 percent 
to 10 percent. We have had some recent testimony that that has 
leveled out and in fact, is now in the process of reversing 
itself. We have a huge international competitive edge in part 
because of logistics efficiency. We take it for granted in the 
atmosphere here.
    But you go to Europe, their road system cost of 
transporting goods is much higher. You go to India or China, it 
is still much more expensive than we are here in the United 
States. So we undergird our high standard of living through 
efficiency in a variety of areas, including the interstate 
system. Maintaining that and stopping that trend from going 
down and reversing it and having it continue to be efficient 
and more efficient is a major challenge.
    I don't know if any of you have any comments at all on 
that, any explanation as to why it has started to go down or if 
you would care to dispute or expand on my kind of little ode to 
the interstate highway system. But we thank you for your 
testimony and will give you a chance to make a concluding 
remark.
    Mr. McCormick. Well, Mr. Chairman, be assured I will not 
dispute any of the statements you made, because they are 
completely accurate. I believe--and I have been blessed--I have 
worked over 40 years in my profession. The interstate system 
has always been a part of that profession. I had a chance to 
work at State DOT level, Federal Government and the private 
sector. It is that partnership and it is the fact, in my 
judgment, that it has been an effective capital investment 
program that has served our Country so well over the last 50 
years.
    And investment is a never-ending process, as the point was 
made a moment ago. If we look to the future and our global 
competitiveness, the interstate system was planned in the 1930s 
and 1940s. The program has been such a success it has changed 
the economic structure of this Country. And it is time for us 
to create the vision that supports change and renews our effort 
for the future.
    Mr. Gifford. Directly on the Chairman's point on our 
logistics costs, let me just quote some statistics that I 
looked up before coming in today. If you want to measure the 
efficiency of our transportation system, one measure is 
transportation costs as a percentage of the value of goods 
transported. So what fraction of delivered goods is tied up in 
transportation costs?
    In the U.S., it is between 3 and 4 percent. In the EU 15 
countries, it is 5 to 6 percent. In Canada, it is 4 to 6 
percent, depending on the measure. So we are significantly 
below, and I think that provides competitive advantage in our 
economy and also improves the quality of life of our citizens.
    You invited us to make a concluding point, I have just 
finished a sabbatical at the Transportation Research Board for 
the last nine months. One of the things I was looking at was 
the interstate system, what I call an exceptional system, and 
looking back in our history over 230 years to ask whether there 
are other examples where the Federal Government stepped in and 
took actions like this.
    I mentioned air traffic control as one example, but there 
really aren't any other examples. It is very unusual to have 
such strong Federal leadership in what really is a centrally 
planned system that was designated and closely coordinated with 
the States, but had a very strong central, Federal role. I have 
called it un-American in a way. I was explaining it once to 
some Chinese central planners who didn't understand our 
electric power system, which grew from the bottom up. The 
interstate system they understood immediately.
    And it is very unusual in our history as a Country for the 
Federal Government to take such a strong role and to centrally 
plan a system. I think the takeaway message is the benefits 
that have come from that have been extraordinary. It is not a 
perfect system by any manner or means. We learned a lot along 
the way, we made some mistakes.
    But if you look at it as a system, there is almost nothing 
else in our economy that has had such a strong centrally 
planned, centrally organized role. Going forward, we have to 
think carefully about whether we will be able to replicate 
that. Maybe we can. Maybe we should. But it is a challenge. It 
is a challenge in these days of scarce Federal resources, 
retirement entitlements and so forth. It is a real challenge 
going forward to say whether we will be able to replicate that 
achievement.
    Mr. Lewis. First, thank you very much for your remarks, Mr. 
Chairman. And thank you also again for inviting me to 
participate.
    I do want to, since I am the historian on the group here, 
to tell you a couple of things, remind us of a couple of 
things. In 1972, that was the year that the original interstate 
was expected to be finished, to be completed. It took a good 
deal longer, as we of course know. But I think that is an 
important thing for us to understand.
    And as the historian, I also want to just pay some maybe 
homage to Representative Fallon, who was a part of this 
Committee many years ago, and who was so important in the 
creation of the interstate highway system. And he is one of the 
great ones who should be remembered.
    But then as well, I think it is important for us on this 
moment, as we are celebrating the interstate highway system, to 
remember the extraordinary achievements of the engineers who 
created this, the members of AASHTO, what is now AASHTO. All of 
these State and regional planners and engineers did an 
extraordinary job. We are in their debt, because they have 
helped to make America what it is today in terms of its 
strength.
    This Congress, the people, representatives in this room are 
the ones who obviously have the power to create these systems, 
but the men and women who brought it together and instituted it 
really deserve our thanks as well.
    And finally I want to just say, looking to the future, that 
you all, the representatives on this Committee and our 
representatives in Congress, have an extraordinary 
responsibility. Because the interstate system has been so 
successful and has created the economic power of this Country 
and helped maintain the economic power of this Country, you 
have an extraordinary responsibility to chart a course to keep 
that system not only healthy but also to expand it.
    And so thank you very much.
    Mr. Petri. That is an appropriate note on which to end this 
hearing. We thank you for your contribution. The hearing is 
adjourned and there is cake to celebrate. Thank you very much.
    [Whereupon, at 3:43 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0655.001
    
    [GRAPHIC] [TIFF OMITTED] T0655.002
    
    [GRAPHIC] [TIFF OMITTED] T0655.003
    
    [GRAPHIC] [TIFF OMITTED] T0655.004
    
    [GRAPHIC] [TIFF OMITTED] T0655.005
    
    [GRAPHIC] [TIFF OMITTED] T0655.006
    
    [GRAPHIC] [TIFF OMITTED] T0655.007
    
    [GRAPHIC] [TIFF OMITTED] T0655.008
    
    [GRAPHIC] [TIFF OMITTED] T0655.009
    
    [GRAPHIC] [TIFF OMITTED] T0655.010
    
    [GRAPHIC] [TIFF OMITTED] T0655.011
    
    [GRAPHIC] [TIFF OMITTED] T0655.012
    
    [GRAPHIC] [TIFF OMITTED] T0655.013
    
    [GRAPHIC] [TIFF OMITTED] T0655.014
    
    [GRAPHIC] [TIFF OMITTED] T0655.015
    
    [GRAPHIC] [TIFF OMITTED] T0655.016
    
    [GRAPHIC] [TIFF OMITTED] T0655.017
    
    [GRAPHIC] [TIFF OMITTED] T0655.018
    
    [GRAPHIC] [TIFF OMITTED] T0655.019
    
    [GRAPHIC] [TIFF OMITTED] T0655.020
    
    [GRAPHIC] [TIFF OMITTED] T0655.021
    
    [GRAPHIC] [TIFF OMITTED] T0655.022
    
    [GRAPHIC] [TIFF OMITTED] T0655.023
    
    [GRAPHIC] [TIFF OMITTED] T0655.024
    
    [GRAPHIC] [TIFF OMITTED] T0655.025
    
    [GRAPHIC] [TIFF OMITTED] T0655.026
    
    [GRAPHIC] [TIFF OMITTED] T0655.027
    
    [GRAPHIC] [TIFF OMITTED] T0655.028
    
    [GRAPHIC] [TIFF OMITTED] T0655.029
    
    [GRAPHIC] [TIFF OMITTED] T0655.030
    
    [GRAPHIC] [TIFF OMITTED] T0655.031
    
    [GRAPHIC] [TIFF OMITTED] T0655.032
    
    [GRAPHIC] [TIFF OMITTED] T0655.033
    
    [GRAPHIC] [TIFF OMITTED] T0655.034
    
                                    

</pre></body></html>
